                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

    Case Number: I09060029                                              (       Page 1 of 1


        The anonymous complainant1 made a n allegation against the subject2 t h a t the
1       subject received funding for dupli'cate proposals.

        We analyzed the proposals3 and the circumstances under which the two proposals
        were submitted, and determined t h a t (a) the second proposal represented a n
        expansion of the work proposed in the first, a n d (b) the subject provided full
        disclosure about the first proposal in the second. We concluded t h a t no wrongdoing
        occurred.

        Therefore, this case is closed.




NSF OIG Form 2 (11102)
